No. 19-266

 

IN THE

Supreme Court of the United States

SEANTREY MORRIS,

Petitioner,
v.

JOSEPH MEKDESSIE, BRANDON LEBLANC; DANIEL
SWEARS; ARTHUR S. LAWSON, IN HIS OFFICIAL
CAPACITY AS CHIEF OF POLICE, CITY OF GRETNA
POLICE DEPARTMENT; GRETNA CITY,

Respondents.

ON PETITION For A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,984 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 20, 2019.

"ub

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
